May 2, 2014

MEMORANDUM FOR:              Eileen Sobeck
                             Assistant Administrator for Fisheries



FROM:                        Andrew Katsaros
                             Assistant Inspector General for Audit

SUBJECT:                     Audit of the National Marine Fisheries Service’s Observer
                             Program

We are initiating an audit of the National Marine Fisheries Service’s (NMFS) Observer Program.
Our objective will be to understand how effectively NMFS has evaluated fishery monitoring
options, innovations, and methods. As part of this audit, we will assess NMFS’ compliance with
applicable laws, regulations, and policies.

We look forward to meeting with your team to discuss the audit’s scope and methodology. In
the meantime, if you have any questions about this audit, please contact me at (202) 482-7859
or Ken Stagner, Regional Inspector General for Audit, Denver Regional Office, at (303) 312-
7650. Thank you in advance for your cooperation.
